                  Report on Audit of Purchasing System

                                  July 2005

                     Reference Number: 2005-1C-067




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            July 11, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Purchasing System (Audit #20051C0222)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s purchasing
       system as of March 4, 2005. The purpose of the examination was to assure the
       contractor’s purchasing system and related internal controls are adequate, effective,
       and comply with applicable laws and regulations.
       The DCAA considered the contractor’s purchasing system and related internal control
       policies and procedures adequate. Test procedures were applied from
       November 3, 2004, through March 4, 2005. The DCAA examined only the purchasing
       system. Accordingly, the DCAA expresses no opinion on the contractor’s internal
       control taken as a whole.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
